HHS/OIG-Audit--"Recipient Capability Audit at National Empowerment Center,Inc, (A-01-98-01502)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Recipient Capability Audit at National Empowerment Center, Inc.," (A-01-98-01502)
December 17, 1997
Complete
Text of Report is available in PDF format (890 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to: (1) determine whether the National Empowerment Center, Inc, (NEC) has established
policies and procedures in accordance with financial management standards in Title 45 Code of Federal Regulations (CFR),
Part 74, and, (2) address specific concerns of whether: (a) NEC has in place adequate staff to ensure the segregation of
various accounting functions, (b) it is reasonable for NEC to have the same policies relative to health and life insurance
benefits for part-time employees as for those employees working full-time, (c) NEC's policies for paid time off are reasonable,
and (d) costs allocated, including space rental costs, to the National Consumer Technical Assistance Project were reasonable,
allowable and allocable in accordance with the cost principles contained in Title 45 CFR, Part 74.
We found that NEC does have Board of Director's By-laws; accounting and employee manuals; and a fire resistant safe to
store valuable documents; and NEC has in place adequate staff to ensure the segregation of various accounting functions.
However, we have concerns with the design and operation of the NEC Board of Directors and NEC's internal control structure
with respect to its financial system in the areas of policies and procedures on: accounting for and reporting on use of
Federal funds; cash receipts; personnel, procurement and travel management. We found that NEC's (1) fringe benefit policies
are generally reasonable, except for health and dental insurance benefit policies for part-time employees hired before
July 1, 1997, and (2) costs allocated to the National Consumer Technical Assistance Project were generally reasonable,
allowable and allocable, except for the reasonableness of the bookkeeper's salary. The Board of Directors has agreed to
take corrective action on each of the issues raised in this report.